   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Office of Audit Services, Region III
                                                                         Public Ledger Building, Suite 316
                                                                         150 S. Independence Mall West
                                                                         Philadelphia, PA 19106-3499




August 22, 2011

Report Number: A-03-11-00202

Mr. Wayne M. Turnage
Director
Department of Health Care Finance
899 North Capitol Street NE, Suite 600
Washington, DC 20001

Dear Mr. Turnage:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector General
(OIG), final report entitled Review of Provider Compliance With the District of Columbia’s
Medicaid Durable Medical Equipment Program Standards for Physical Presence. We will
forward a copy of this report to the HHS action official noted on the following page for review and
any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your response
should present any comments or additional information that you believe may have a bearing on the
final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-11-00202 in all correspondence.


                                               Sincerely,



                                               /Stephen Virbitsky/
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 – Mr. Wayne M. Turnage


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF PROVIDER COMPLIANCE
WITH THE DISTRICT OF COLUMBIA’S
  MEDICAID DURABLE MEDICAL
EQUIPMENT PROGRAM STANDARDS
    FOR PHYSICAL PRESENCE




                        Daniel R. Levinson
                         Inspector General

                           August 2011
                          A-03-11-00202
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In the District of Columbia (the District),
the Department of Health Care Finance (State agency) administers the Medicaid program.

District of Columbia Medicaid Durable Medical Equipment Program

Pursuant to its Medicaid State plan, the District provides durable medical equipment and
prosthetics, orthotics and supplies (DMEPOS) for eligible beneficiaries through its Durable
Medical Equipment (DME) program. The DME program reimburses providers that sell or rent
to beneficiaries DMEPOS, including hospital beds, braces, home dialysis supplies and
equipment, therapeutic shoes for diabetics, wheelchairs, walkers, scooters, oxygen equipment,
and other home health care items. During the period January 1, 2007, through June 30, 2010, the
District’s DME program reimbursed providers approximately $50 million.

Title 29 of the District of Columbia Municipal Regulations (DCMR) require that a DMEPOS
provider must maintain a physical facility (29 DCMR § 996.2(c)), be open for business at least
40 hours per week (29 DCMR § 996.2(e)), maintain a visible sign stating the provider name and
hours of operation (29 DCMR § 996.2(f)), permit on-site inspections (29 DCMR § 996.2(g)), and
maintain a primary business phone number (29 DCMR § 996.2(j)).

A separate report identified 10 DMEPOS providers who were enrolled in the District’s Medicaid
DME program after their Medicare billing numbers had been revoked. We included in this
report those DMEPOS providers previously identified who remained active during our audit
period.

OBJECTIVE

To determine whether the State agency ensured that DMEPOS providers complied with District
regulations for five selected standards concerning physical presence.

SUMMARY OF RESULTS

The State agency did not ensure that DMEPOS providers complied with the State plan and
District regulations for five selected standards concerning physical presence. Of the 112 District
DMEPOS providers for whom we performed site visits, 92 met all 5 District standards
concerning physical presence. However, we identified 20 providers that failed to meet at least 1

                                                 i
of the 5 standards: 11 providers were not open for business the required 40 hours per week, 7
providers did not have a physical facility, and 2 providers did not have the required sign that
would identify them as DMEPOS providers. All providers that maintained a physical facility
permitted on-site inspections and maintained a business phone number.

ACTION TAKEN

During our audit we advised the District of our findings. The District took corrective actions to
improve its oversight of DMEPOS providers and terminated 10 of the 20 providers that were not
in compliance with at least 1 of the 5 standards, including the 7 providers that did not have a
physical facility.

RECOMMENDATION

We recommend that the District take action against the 10 providers not operating the required
40 hours per week and ensure that DMEPOS providers comply with District regulations for the 5
selected standards concerning physical presence.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

The State agency agreed with the intent of our recommendation and said that it is continuing to
review all DME providers to ensure that they meet all required standards. The State agency said
that based on a review of their records, it determined that 4 of the 10 providers in our finding
were in compliance with the required standards and 1 provider was in compliance but has since
left the program. The State agency agreed that five DME providers were not in compliance with
the standard for hours of operation and said that it will terminate those five providers or update
their files. The State agency’s comments on our draft report are included in their entirety as the
Appendix.
We based our finding that the 10 DME providers were not in compliance with the standard for
hours of operation on site visit inspections, during which we observed posted hours of
operations. Nothing in the State agency’s comments caused us to change our recommendation.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.................................................................................................................1
          BACKGROUND ........................................................................................................1
              Medicaid Program ...........................................................................................1
              The District’s Medicaid Durable Medical Equipment Program .....................1
              Prior Audit of Durable Medical Equipment Program .....................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................1
               Objective .........................................................................................................1
               Scope ...............................................................................................................2
               Methodology ...................................................................................................2

FINDINGS AND RECOMMENDATION..........................................................................2

          DISTRICT REGULATIONS......................................................................................3

          RESULTS OF SITE VISITS ......................................................................................3

          ACTION TAKEN .......................................................................................................3

          RECOMMENDATION ..............................................................................................3

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE ...........................................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In the District of Columbia (the District),
the Department of Health Care Finance (State agency) administers the Medicaid program.

The District’s Medicaid Durable Medical Equipment Program

Pursuant to its Medicaid State plan, the District provides durable medical equipment and
prosthetics, orthotics and supplies (DMEPOS) for eligible beneficiaries through its Durable
Medical Equipment (DME) program. The DME program reimburses providers that sell or rent
to beneficiaries DMEPOS, including hospital beds, braces, home dialysis supplies and
equipment, therapeutic shoes for diabetics, wheelchairs, walkers, scooters, oxygen equipment,
and other home health care items. During the period January 1, 2007, through June 30, 2010, the
District’s DME program reimbursed providers approximately $50 million.

Effective May 30, 2008, the District established standards for DMEPOS providers seeking to
participate or currently participating in the DME program. 1 The District modeled the standards
after the standards used in the Medicare DMEPOS program, administered by CMS.

Prior Audit of Durable Medical Equipment Program

A separate report identified 10 District providers who were enrolled in the District’s Medicaid
DME program after their Medicare billing numbers had been revoked. During our review, the
District initiated termination action against the 10 providers. We included in this report those
providers previously identified who remained active during our audit period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

To determine whether the State agency ensured that DMEPOS providers complied with District
regulations for five selected standards concerning physical presence.



1
 The District revised the standards contained in 29 DCMR chapter 9 in July 2009; however, the requirements for
physical presence remain substantially the same.

                                                        1
Scope

We conducted unannounced site visits for 112 of the 195 active District DMEPOS provider
locations. 2 We did not review the overall internal control structure of the District. We limited
our review to those controls related to the District’s methodology for reviewing Medicaid
DMEPOS providers for compliance with District standards.
We conducted our fieldwork at 112 District DMEPOS provider locations in the District,
Maryland, and Virginia during August and September 2010.

Methodology

To accomplish our objective, we:

    •    reviewed Federal Medicaid regulations and District laws and regulations pertaining to
         DMEPOS provider participation in the Medicaid program,

    •    reviewed the portion of the District of Columbia’s State plan related to the DME
         program,

    •    interviewed District officials to determine their policies and procedures for provider
         participation in the District’s DME program,

    •    conducted 112 unannounced site visits at District DMEPOS providers, and

    •    discussed our findings with District officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATION

The State agency did not ensure that DMEPOS providers complied with the State plan and
District regulations for five selected standards concerning physical presence. Of the 112 District
DMEPOS providers for whom we performed site visits, 92 met all 5 District standards
concerning physical presence. However, we identified 20 providers that failed to meet at least
one of the 5 standards: 11 providers were not open for business the required 40 hours per week, 7
providers did not have a physical facility, and two providers did not have the required sign that
would identify them as DMEPOS providers. All providers that maintained a physical facility

2
 We did not conduct site visits for 83 DMEPOS providers, including providers with addresses outside of the
District, Maryland and Virginia; providers that were part of a large pharmacy chain; and providers that the State
agency had already taken action to terminate.


                                                          2
permitted on-site inspections and maintained a business phone number as required by District
regulations.

DISTRICT REGULATIONS

Title 29 of the District of Columbia Municipal Regulations (DCMR) requires, among other
things, that a DMEPOS provider must:

   •   maintain a physical facility (29 DCMR § 996.2(c)),

   •   be open for business at least 40 hours per week (29 DCMR § 996.2(e)),

   •   maintain a visible sign stating the provider name and hours of operation (29 DCMR §
       996.2(f)),

   •   permit on-site inspections (29 DCMR § 996.2(g)), and

   •   maintain a primary business phone number (29 DCMR § 996.2(j)) .

DMEPOS providers are also subject to the District’s administrative regulations, which provide
grounds for administrative sanctions for failure to comply with pertinent District laws and
regulations. Sanctions may include termination of the providers’ participation in the DMEPOS
program (29 DCMR § 1302.1(c)).

RESULTS OF SITE VISITS
Twenty DMEPOS providers failed to meet at least one of the five standards for physical
presence. Eleven providers were not open for business the required 40 hours per week; the
providers posted hours of operation ranging from 17 hours to 39 hours per week. Seven
providers did not have a physical facility and have not billed the District for 2 years. They
appear to have gone out of business. We also found two providers who did not have the required
sign that would identify them as DMEPOS providers. All providers that maintained a physical
facility permitted on-site inspections and maintained the required business phone number.
ACTION TAKEN

During our audit we advised the District of our findings. The District took corrective actions to
improve its oversight of DME providers and terminated ten of the 20 DMEPOS providers that
were not in compliance with at least one of the five standards, including the 7 providers that did
not have a physical facility.

RECOMMENDATION

We recommend that the District take action against the 10 providers not operating the required
40 hours per week and ensure that DMEPOS providers comply with District regulations for 5
selected standards concerning physical presence.


                                                 3
STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

The State agency agreed with the intent of our recommendation and said that it is continuing to
review all DME providers to ensure that they meet all required standards. The State agency said
that based on a review of their records, it determined that 4 of the 10 providers in our finding
were in compliance with the required standards and 1 provider was in compliance but has since
left the program. The State agency agreed that five DME providers were not in compliance with
the standard for hours of operation and said that it will terminate those five providers or update
their files. The State agency’s comments on our draft report are included in their entirety as the
Appendix.
We based our finding that the 10 DME providers were not in compliance with the standard for
hours of operation on site visit inspections, during which we observed posted hours of
operations. Nothing in the State agency’s comments caused us to change our recommendations.




                                                4
APPENDIX
                                                                                           Page 1 of 2
                          APPENDIX: STATE AGENCY COMMENTS

                         GOVERNMENT OF THE DISTRICT OF COLUMBIA
                               Department of Health Care Finance


Office of the Director




                                            W;\
                                               --
                                               ***

                                            ",'t   __
                                                        ~?, L~\\
                                                        I




Stephen Virbitsky
Regional Inspector General for Audit Services
US Department of Health and Human Services
Public Ledger Building
Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

In Re: Report Number: A-03-11-00202

Dear Mr. Virbitsky:

This letter responds to the US Department of Health and Human Services, Office of the Inspector
General's (OIG) draft report entitled Review ofProvider Compliance With the District of
Columbia's Medicaid Durable Medical Equipment Program Standards for Physical Presence.
Your audit found 10 District of Columbia DMEIPOS Medicaid providers that did not meet the
physical presence standards for participation.

The draft report recommends:

          We recommend that the District take action against the 10 providers not operating the
          required 40 hours per week and ensure the DMEIPOS providers comply with District
          regulations for the 5 selected standards concerning physical presence.

After identifying the 10 providers referenced, the DHCF reviewed those records and determined
that:

                1. 	 4 of the 10 providers were in compliance with the District of Columbia's
                     standards.
                2. 	 1 had been in compliance but has since voluntarily withdrawn from the program.
                3. 	 5 of the 10 providers need to have actions taken to either update their files or
                     termination.

The DHCF agrees with the intent of the recommendation and is continuing to review all DME
providers, on an ongoing basis, to ensure they all meet all required standards.
                                                                                    Page 2 of 2



Thank you for the opportunity to respond to this draft report and we look forward to continuing
to work collaboratively with you to ensure an efficient and compliant Medicaid program. Should
you have any questions, please contact Brenda Sutton on (202) 698-2018 or at
Brenda.Sutton2@dc.gov.

Sincerely,




Wayne M. Turnage
Director

cc: 	Linda Elam, Deputy Director
     Pat Squires, Interim Director, Health Care Operations Administration
     Karen Shaw, Program Manager, Division of Program Integrity
     Laurie Rowe, Program Manager, Division Public and Private Provider Services
